PROOF OF SERVICE
I, RonaldW. Greer, do swear or declare that on this date, January 19th, 2021 as
Supreme Court Rule 29, I have served the enclosed PETITION FOR A WRIT
OF CERTIORARI AND MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on each party to
the above proceeding or that party's counsel, and on every other person required
to be served, by depositing an envelope addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days.
The name and address of Respondent's attorney being served is:
Missouri Attorney General
P.0. Box 899
Jefferson City, Missouri 65102
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on January

2021.

JhtkA,
Ronald W. Greer

